CERTIFICATE OF WORD COUNT
NO. 19-600
Jon Krakauer,
Petitioner,
v.
State of Montana, by and Through Its Commissioner of Higher Education Clayton T. Christian,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the JON KRAKAUER REPLY
BRIEF OF PETITIONER contains 2925 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dan Abramovich

January 17, 2020
SCP Tracking: Meloy-P.O. Box 1241-Cover Tan

